                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number: A09120087                                                                       Page 1 of 1



                          NSF OIG received an allegation that an NSF proposal! contained a small amount
         of plagiarism.

                  We contacted the PI2 , who said the plagiarism was committed by his students who had
         authored the proposals on his behalf. He said he has since expiained correct citation procedures
         to his students.

                 We sent a letter to the PI reminding him to adequately cite text within his NSF proposals
         and to name all authors ofproposal text, and sent a letter to the institution3 reminding it of its
         responsibilities under the America COMPETES Act.

                   Accordingly, this case is closed.




NSF DIG Fonn 2 (1!/02)
